No. _____________

In The

Supreme Court Of The United States
Bret Chiafalo, Levi Jennet Guerra, and Esther Virginia John,
Applicants,
v.
State of Washington,
Respondent.
APPLICATION FOR AN EXTENSION OF TIME TO FILE A
PETITION FOR WRIT OF CERTIORARI
TO THE SUPREME COURT OF WASHINGTON
Directed to the Honorable Elena Kagan, Associate Justice,
as Circuit Justice

L. Lawrence Lessig
Counsel of Record
EQUAL CITIZENS
12 Eliot Street
Cambridge, MA 02138
lessig@law.harvard.edu
(617) 496-1124
Dated: August 2, 2019

TO THE HONORABLE ELENA KAGAN:
APPLICATION FOR AN EXTENSION OF TIME
Pursuant to Rule 13.5 of the Rules of this Court, Applicants
Bret Chiafalo, Levi Guerra, and Esther John hereby request a 60day extension of time within which to file a petition for a writ of
certiorari, up to and including October 21, 2019.
JUDGMENT FOR WHICH REVIEW IS SOUGHT
The judgment for which review is sought is In the Matter of
Levi Guerra, Esther V. John, and Peter B. Chiafalo, No. 95347-3
(May 23, 2019) (attached as Exh. 1). The Supreme Court of the
State of Washington issued its opinion and judgment on May 23,
2019.
JURISDICTION
This Court will have jurisdiction over any timely filed
petition for certiorari in this case pursuant to 28 U.S.C. § 1257(a).
Under Rules 13.1, 13.3, and 30.1 of the Rules of this Court, a
petition for a writ of certiorari would be due to be filed on or before
August 21, 2019. In accordance with Rule 13.5, this application
is being filed more than 10 days in advance of the filing date for
the petition for a writ of certiorari.

1

REASONS JUSTIFYING AN EXTENSION OF TIME
Applicants respectfully request a 60-day extension of time
within which to file a petition for a writ of certiorari seeking review
of the decision of the Supreme Court of the State of Washington,
up to and including October 21, 2019.
1. This case presents an important and unresolved question
of federal constitutional law: whether presidential electors may be
penalized for their decision to vote for a presidential candidate
other than the one that they had been pledged to vote for. In Ray
v. Blair, 343 U.S. 214 (1952), this Court upheld a state law
requiring such a pledge but specifically declined to decide whether
“such promises of candidates for the electoral college are legally
unenforceable because violative of an assumed constitutional
freedom of the elector under the Constitution, Art. II, § 1, to vote
as [the elector] may choose in the electoral college.” Id. at 230.
Developments in presidential elections since Ray have revealed
that it is critical for this Court to answer the question of the
freedom of presidential electors before the next presidential
election in 2020 so that states and presidential electors know
whether laws purporting to bind the votes of presidential electors

2

are enforceable. (Approximately thirty states have some form of
these laws.)
2. An extension is warranted so that this Court can
effectively coordinate multiple cases and potentially render a
decision on this unresolved issue before the 2020 presidential
election. Several counsel for Applicants are also counsel for former
presidential electors in Baca v. Colorado Department of State, 10th
Cir.

No.

18-1173.

Baca

presents

substantially

the

same

constitutional issue as this one. That appeal was argued in the U.S.
Court of Appeals for the Tenth Circuit on January 24, 2019, but no
decision has yet been issued.
If the presidential electors succeed in that appeal, that will
create a direct, recent conflicting decision that this Court would be
in sole position to resolve. And even if Colorado prevails on appeal
in Baca, this Court will still have the benefit of an additional
appellate decision as it considers whether to grant this important
petition. In either event, if an extension is granted, this Court will
receive the benefit of multiple recent lower court decisions. At the
same time, even with an extension, this Court will still be able to
potentially hear this appeal on the merits in October Term 2019
3

and render a decision in advance of the 2020 presidential election
without any need for an expedited schedule.
Thus, there is good cause to extend the time to file this
petition for 60 days so that this petition can be researched, written,
and filed when the Court, the parties, and any potential amici have
the maximum information available to them.
3. Once the Tenth Circuit decides the Baca appeal, the
Applicants will move quickly to draft and file their petition in this
case. Thus, while a pre-emptive extension is necessary so that the
Applicants can have certainty about the ultimate due date for any
petition, this Court may in fact receive the petition in this case
earlier than the extended due date if the Tenth Circuit issues a
decision relatively soon.

4

